Nos. 19-351, 18-1447

In the Supreme Court of the United States
FEDERAL REPUBLIC OF GERMANY, ET AL., PETITIONERS,
v.
ALAN PHILIPP, ET AL.
REPUBLIC OF HUNGARY, ET AL., PETITIONERS,
v.
ROSALIE SIMON, ET AL.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE D.C. CIRCUIT

BRIEF FOR SOCIÉTÉ NATIONALE SNCF SA
AS AMICUS CURIAE IN SUPPORT OF NEITHER
PARTY AND SUPPORTING REVERSAL
R. REEVES ANDERSON
ARNOLD & PORTER
KAYE SCHOLER LLP
1144 Fifteenth Street
Suite 3100
Denver, CO 80202
(303) 863-1000

JOHN B. BELLINGER, III
Counsel of Record
SALLY L. PEI
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
(202) 942-5000
John.Bellinger@arnoldporter.com

i
RULE 29.6 STATEMENT

Société Nationale SNCF SA (“SNCF”) is a “foreign
state” as defined by 28 U.S.C. § 1603(a). SNCF has no
parent corporation. No publicly held corporation holds
10% or more of its stock. SNCF is wholly owned by the
Republic of France.

ii
TABLE OF CONTENTS
Page

Rule 29.6 statement .............................................................. i
Table of authorities .............................................................iii
Interest of Amicus Curiae .................................................. 1
Introduction and summary of the argument..................... 4
I. France has established comprehensive
remedial programs to provide compensation
to Holocaust victims and their heirs ........................... 9
II. The United States supports France’s efforts
to provide reparations for Holocaust victims .......... 13
III. Comity-based abstention permits U.S. courts
to defer to robust remedial programs such as
CIVS ............................................................................. 16
Conclusion ........................................................................... 25
Addendum A: Declaration of Michel Jeannoutot ........... 1a
Addendum B: Supplemental Declaration of
Michel Jeannoutot .................................................... 19a
Addendum C: Declaration of Stuart Eizenstat ............. 25a

iii
TABLE OF AUTHORITIES
Cases

Page(s)

Abelesz v. Magyar Nemzeti Bank,
692 F.3d 661 (7th Cir. 2012) ................................. 7, 20, 24
Abrams v. Société Nationale des Chemins de Fer
Français,
175 F. Supp. 2d 423 (E.D.N.Y. 2001)............................... 6
Cooper v. Tokyo Elec. Power Co.,
860 F.3d 1193 (9th Cir. 2017) ......................................... 21
Fischer v. Magyar Államvasutak Zrt.,
777 F.3d 847 (7th Cir. 2015) ........................... 7, 20, 22, 23
Freund v. Republic of France,
592 F. Supp. 2d 540 (S.D.N.Y. 2008) ............. 6, 14, 17, 18
Hilton v. Guyot,
159 U.S. 113 (1895) .......................................................... 20
JP Morgan Chase Bank v. Altos Hornos de Mexico,
S.A. de C.V.,
412 F.3d 418 (2d Cir. 2005) ............................................. 22
Kiobel v. Royal Dutch Petroleum Co.,
569 U.S. 108 (2013) .................................................... 20, 22
Mujica v. AirScan,
771 F.3d 580 (9th Cir. 2014) ..................................... 21, 22
Republic of Argentina v. NML Capital, Ltd.,
573 U.S. 134 (2014) .......................................................... 22
Republic of Austria v. Altmann,
541 U.S. 677 (2004) .................................................... 19, 23
Republic of Philippines v. Pimentel,
553 U.S. 851 (2008) .......................................................... 20
Samantar v. Yousuf,
560 U.S. 305 (2010) .......................................................... 21

iv
Cases—Continued

Page(s)

Scalin v. Société Nationale des Chemins de Fer
Français, Case No. 15-cv-3362, 2018 WL 1469015
(N.D. Ill. March 26, 2018) ............................... 7, 18, 19, 20
Sosa v. Alvarez Machain,
542 U.S. 692 (2004) .............................................. 19, 20, 24
Ungaro-Benages v. Dresdner Bank AG,
379 F.3d 1227 (11th Cir. 2004) ....................................... 22
United States v. Clark,
96 U.S. 37 (1878) ................................................................ 4
Statutes

22 U.S.C. § 2370(e)(2)......................................................... 21
28 U.S.C. § 1606 .................................................................. 22
Other Authorities

Compensation and Restitution for Holocaust Victims in
France, Mémorial de la Shoah ......................................... 9
Décret No. 99-778, art. 1.................................................... 11
Key figures (February 2020), CIVS................................. 13
Le discours de Jacques Chirac au Vel d’hiv en 1995,
Le Figaro (March 27, 2014) .............................................. 9
The Mattéoli Mission, CIVS ............................................ 10
Opening a case file, CIVS ................................................. 11
Scope, CIVS ........................................................................ 11
Statement by Guillaume Pepy, Chairman of SNCF,
Regarding SNCF’s Role in World War II,
PR Newswire (Nov. 4, 2010) ............................................ 5

INTEREST OF AMICUS CURIAE1

Amicus curiae is Société Nationale SNCF SA
(“SNCF”), the French government-owned national railway. SNCF is the successor in interest to Société Nationale des Chemins de Fer Français, the state-owned railway that was formed in 1937 upon the nationalization of
the French railroad industry.
SNCF has a direct and critical interest in whether
U.S. courts may abstain from exercising jurisdiction under the expropriation exception to the Foreign Sovereign
Immunities Act as a matter of international comity.
France has long been committed to providing compensation and reparations for victims of Holocaust-era wrongs
committed in France. SNCF is currently a defendant in a
suit filed by relatives of Holocaust victims under the expropriation exception of the FSIA. The case is pending in
the Seventh Circuit after dismissal by the U.S. District
Court for the Northern District of Illinois, on the ground
that the plaintiffs had not first applied for compensation
from a commission in France created to hear claims for
Holocaust-era spoliations.
Beginning in 1948, France established several administrative compensation programs for Holocaust victims in
France and their heirs. They include compensation for
persons deported during the Holocaust who survived; a
pension program for children who lost one or both parents
in the Holocaust; and a compensation program for property taken in France during the Holocaust pursuant to
Pursuant to Rule 37.6 of the Rules of this Court, the undersigned
hereby states that no counsel for a party wrote this brief in whole
or in part, and no one other than amicus curiae or its counsel contributed money to fund the preparation or submission of this brief.
Pursuant to Rule 37.3(a) of the Rules of this Court, counsel for all
parties have filed with the Clerk letters of blanket consent to the
filing of amicus briefs in these cases.
1

2
anti-Semitic laws. These compensation programs are
more extensive than those offered by many other European countries and have been formally endorsed by the
French Jewish community. France’s efforts to provide
compensation to Holocaust victims have also received the
support of the United States government. Indeed, the
United States has publicly acknowledged on numerous occasions France’s deep commitment to providing fair and
equitable compensation to Holocaust victims and their
families, and in 2014 entered into a binding international
agreement with France recognizing that French programs should serve as the “exclusive” means for redressing claims arising from Holocaust-era injuries in France.
The United States agreed that “France should not be
asked … to satisfy further claims in connection with deportations from France during the Second World War before any court or other body of the United States.”
Notwithstanding the availability of suitable compensation through these remedial programs, over the past
two decades, plaintiffs have initiated three class-action
suits against SNCF in U.S. courts for its role in transporting Holocaust victims from France to the then-German
border en route to Nazi extermination camps. Two of
those cases involved allegations that SNCF personnel expropriated property from persons deported on SNCF
trains commandeered by the German military.
The historical record is clear that SNCF did not itself
confiscate property from deportees. Any property taken
from deportees on SNCF trains, or during embarkation
or disembarkation therefrom, was taken by Nazi SS
and/or Vichy authorities, not by SNCF personnel. Regardless of the merits (or lack thereof) of the specific
claims against SNCF, however, SNCF recognizes that
Holocaust victims and their heirs deserve compensation
for property seized in France during deportations. While

3
no amount of compensation could wholly redress the injuries suffered by Holocaust victims, the Republic of France
is committed to ensuring that the victims and their families are afforded at least some measure of justice. But
SNCF has a strong interest in ensuring that Holocaust
victims and their heirs seek compensation for their injuries through the procedures and mechanisms that France
has established for that purpose, rather than pursuing
compensation through lawsuits in U.S. courts. For these
reasons, the United States has submitted statements of
interest urging federal courts to dismiss litigation
brought against SNCF and other French entities arising
out of Holocaust-era spoliations.
SNCF therefore submits this brief to describe the
French compensation systems and explain the critical importance of international comity in ensuring that robust
remedial programs established by foreign sovereigns are
accorded the deference and respect that they deserve.
France has accepted its moral duty to provide relief to
those injured—and to the heirs of those murdered—during the Holocaust. U.S. courts should not be used to circumvent those measures that France has voluntarily established.
SNCF respectfully urges this Court to reverse the
decisions of the D.C. Circuit, which adopted an erroneous
interpretation of the FSIA by holding that U.S. courts are
categorically precluded from applying the doctrine of international comity in deciding whether or not to exercise
jurisdiction over a foreign sovereign. Left uncorrected,
the D.C. Circuit’s rule would mean that U.S. courts would
be required to hear claims regarding Holocaust-era expropriations that occurred on French territory, even
though France is ready, willing, and able to address such
claims and to provide fair and expeditious relief. SNCF

4
otherwise takes no position on the merits of the claims in
these cases.
INTRODUCTION AND
SUMMARY OF THE ARGUMENT

The first Justice Harlan cautioned that “it is the duty
of all courts of justice to take care, for the general good of
the community, that hard cases do not make bad law.”
United States v. Clark, 96 U.S. 37, 49 (1878) (Harlan, J.,
concurring in the judgment). The D.C. Circuit below
failed to heed that adage. Focused on the facts before it,
the court below could not conceive of circumstances in
which a U.S. court could or should abstain from adjudicating an international takings claim against a foreign sovereign until the plaintiffs exhaust available relief in that sovereign’s territory. This brief demonstrates that such circumstances do exist, illustrating the dangers of the D.C.
Circuit’s rigid and short-sighted approach.
Like many other European nations, France has had
to come to terms with the role that it played during the
Holocaust. But perhaps unlike many of its counterparts,
in the wake of World War II, the French government has
established extensive programs to provide broad remedies for Holocaust-era injuries. Those programs are a
paragon of the fair and appropriate remedies to which
U.S. courts should defer as a matter of international comity.
The unspeakable tragedies of the Holocaust are an
indelible stain on French history. Between 1940 and 1944,
the Nazi occupying forces, with the collaboration of the
Vichy government, deported 75,721 Jews—and tens of
thousands of others—from France. The vast majority
never returned.
The Nazis forcibly co-opted SNCF in this cruel enterprise. In June 1940, when Nazi Germany occupied France,

5
one of the German authorities’ first actions was to commandeer SNCF, the French national railway, for the German Wermachtverkehrsdirektion (the German Army
Transportation Department or “WVD”). SNCF was thus
forced into the daily machinery of the Reich. Tragically,
that role included the use of SNCF equipment and personnel to transport French and other European Jews—
including some of the 2,229 SNCF employees murdered
by the Nazis—to internment camps in France, and subsequently to the then-French-German border for deportation to extermination camps. SNCF’s role was limited to
the physical operation of the trains; the WVD organized
the deportation trains and the German Feldgendarmerie
(military police) escorted the convoys. At the French internment camps, Nazi SS and/or Vichy authorities—not
SNCF—searched internees and confiscated valuables.
Nevertheless, for its connection to the horrors committed
by the Nazis, SNCF officials have publicly and without
qualification expressed “profound sorrow and regret.”
Statement by Guillaume Pepy, Chairman of SNCF, Regarding SNCF’s Role in World War II, PR Newswire
(Nov. 4, 2010), https://prn.to/2QIom1X. SNCF continues
to be saddened and shocked by the horrors perpetuated
by Nazi Germany, and has sought to raise awareness of
the tragedies of the Holocaust in France. SNCF has
opened its archives from the World War II period, and
they are available online for public consultation. The company also sponsors educational and research programs,
including about deportations from France during the Holocaust.
In the decades since World War II, France has
sought to reckon with this dark period in its history. Critical in acknowledging and atoning for its role in the horrors perpetuated by the Nazis has been France’s commitment to providing compensation to individuals and their

6
heirs for injuries suffered in France during the Holocaust.
France’s efforts in that regard have received strong diplomatic support from the United States government, as
well as the approval of the Jewish community in France.
Despite France’s conscientious efforts to provide redress for the wrongs committed against Jews on its territory during World War II, SNCF has been sued in the
United States on three occasions since 2000 for its connection to the atrocities perpetuated by the Nazis. Two lawsuits were dismissed because the plaintiffs had not
demonstrated that any exception to the Foreign Sovereign Immunities Act applied. See Freund v. Republic of
France, 592 F. Supp. 2d 540, 561 (S.D.N.Y. 2008), aff’d sub
nom. Freund v. Société Nationale des Chemins de Fer
Français, 39 F. App’x 939 (2d Cir. 2010); Abrams v. Société Nationale des Chemins de Fer Français, 175 F.
Supp. 2d 423, 446 (E.D.N.Y. 2001), aff’d, 389 F.3d 61, 65
(2d Cir. 2004).
Another suit remains pending. Scalin v. Société Nationale SNCF SA, No. 18-1887 (7th Cir.). In that case,
heirs of deportees sued SNCF in the Northern District of
Illinois for allegedly expropriating property from deportees aboard trains that were transporting them from
France to extermination camps. SNCF submitted extensive declarations and evidence regarding the scope of
remedies available in France, including an affidavit from
the chairman of the French commission that provides
compensation for property confiscated during the Holocaust, who stated that the commission is “willing and competent” to hear the plaintiffs’ claims and to recommend
compensation where warranted. See Supplemental Decl.
of Michel Jeannoutot, CIVS Chairman, Scalin, Case No.
15-cv-3362 (N.D. Ill.), ECF No. 56-1 ¶ 10 [hereinafter
Suppl. Jeannoutot Decl.], attached hereto as Addendum
B.

7
The United States, as well as the Conseil
Représentatif des Institutions juives de France (CRIF)—
an umbrella organization that includes more than 70 institutions that represent the Jewish community of France—
submitted briefs in support of SNCF attesting to the comprehensiveness of France’s compensation programs. In
its statement of interest, the United States urged dismissal, including on the basis of international comity and that
the plaintiffs had failed to exhaust remedies in France.
Statement of Interest of the United States, Scalin v. Société Nationale des Chemins de Fer Français, Case No.
15-cv-3362 (N.D. Ill.), ECF No. 63 [U.S. Statement of Interest]. The district court determined that France offers
adequate remedies for the plaintiffs’ claims, and that, under established Seventh Circuit precedent, the plaintiffs
should be required to pursue such remedies in France before they may sue SNCF in the United States under the
FSIA’s expropriation exception. Scalin v. Société Nationale des Chemins de Fer Français, Case No. 15-cv-3362,
2018 WL 1469015, at *3 (N.D. Ill. March 26, 2018); see
Fischer v. Magyar Államvasutak Zrt., 777 F.3d 847, 859–
61 (7th Cir. 2015); Abelesz v. Magyar Nemzeti Bank, 692
F.3d 661, 679–82 (7th Cir. 2012).2 The plaintiffs appealed
that decision to the Seventh Circuit, which has stayed proceedings pending this Court’s disposition of Philipp and
Simon.
In the decisions below, the D.C. Circuit departed
from the Seventh Circuit, holding instead that the FSIA
does not permit U.S. courts—under any circumstances
whatsoever—to abstain from exercising jurisdiction
SNCF also asserted immunity from suit under the FSIA and argued that the plaintiffs had not demonstrated a basis for personal
jurisdiction, among other grounds for dismissal. See Scalin, 2018
WL 1469015, at *1. The district court did not reach those issues.
2

8
under the expropriation exception, even as a matter of international comity. This rule presumably would preclude
abstention or dismissal even where the United States government submits a statement of interest to explain how
the litigation interferes with the United States’ foreign
policy and urges dismissal. The D.C. Circuit’s approach,
which deprives foreign sovereigns of a common-law defense available to any non-sovereign party, was incorrect
and should be reversed.
The D.C. Circuit’s holding that U.S. courts lack the
ability to require plaintiffs in expropriation cases to pursue the broad remedies that France offers before they
may ask an American judge to order France to pay compensation for alleged violations of international law is both
a misinterpretation of the FSIA and an affront to the sovereignty of the French state. The United States would be
similarly affronted if foreign courts insisted on hearing
claims against the U.S. government arising from events
that took place in the United States, without first allowing
the United States an opportunity to address those claims
and provide appropriate remedies. Accordingly, where
foreign sovereigns have created fair and comprehensive
remedial systems to address wrongs committed within
their territories, U.S. courts must have the flexibility and
discretion to defer to such programs, as a matter of the
mutual courtesy and respect that sovereigns afford to
each other in international relations.
For centuries, the doctrine of international comity
has provided that flexibility. Whether to abstain in a given
case on the basis of international comity requires a factspecific analysis, but the comprehensive and well-regarded programs that France has established to address
Holocaust-era injuries, including expropriations, stand as
a clear example of circumstances in which comity-based
abstention is warranted.

9
I.

France Has Established Comprehensive Remedial
Programs To Provide Compensation To Holocaust
Victims And Their Heirs

Beginning in 1948, French law has enshrined the fundamental principle that France shares responsibility for
the consequences of atrocities committed in French territory, enabled by the collaboration of Maréchal Pétain and
his government with the occupying Nazi forces. Shortly
after the end of World War II, France made persons who
were French nationals or residents on or before September 1, 1939 and who were deported from France to concentration and/or extermination camps eligible to acquire
the title of “political deportee” and to receive compensation in the form of a pension. See Compensation and Restitution for Holocaust Victims in France, Mémorial de la
Shoah, https://bit.ly/2YAUKbj.
France has since renewed and reinforced its commitment to providing reparations to the victims of the Holocaust and their heirs. In 1995, then-President Jacques
Chirac publicly acknowledged the nation’s “imprescriptible debt” to the 75,721 Jews deported from France. See
Le discours de Jacques Chirac au Vel d’hiv en 1995, Le
Figaro (March 27, 2014), https://bit.ly/31lYEp8. In recognition of that debt, France—with the support of the
United States—expanded upon its original pension program and established additional programs to compensate
Holocaust victims and their families. Those programs include a pension program for children whose parents died
in extermination camps, a program to pay compensation
for bank-related spoliations (established pursuant to the
2001 Washington Accords), see Decl. of Stuart E. Eizenstat, Statement of Interest of the United States, Ex. A,
Scalin, Case No. 15-cv-3362 (N.D. Ill.), ECF No. 63-1, ¶¶
12–16, attached hereto as Addendum C [hereinafter
Eizenstat Decl.], and—of particular relevance here—the

10
Commission for Spoliation Resulting from the Anti-Semitic Legislation in Force during the Occupation
(“CIVS”), Decl. of Michel Jeannoutot, CIVS Chairman,
Scalin, Case No. 15-cv-3362 (N.D. Ill.), ECF No. 19-3 ¶ 5
[hereinafter Jeannoutot Decl.], attached hereto as Addendum A.
CIVS is the product of an extensive investigation conducted by the French government into the confiscation by
the Nazis and the Vichy authorities of property and valuables belonging to Jews in France during the Holocaust.
In 1997, France established a commission—headed by
Jean Mattéoli, then-president of the Economic and Social
Council, who had been a member of the French Resistance—to investigate such takings. The Mattéoli Working Party ultimately produced a 3,000-page report documenting many tens of thousands of spoliations. The investigation also led to a series of recommendations regarding
how the French government should address these takings. On November 17, 1998, Mr. Mattéoli recommended
that the government “create a body to examine individual
claims by victims of anti-Semitic legislation established
during the Occupation or their heirs. [Such a body] would
ensure the monitoring of claims processing and would be
charged with providing responses, which could take the
form of compensation.” The Mattéoli Mission, CIVS,
https://bit.ly/3m85CYg.
France promptly acted on that recommendation. In
1999, the French government established CIVS “to investigate the confiscations carried out under the Anti-Semitic
Legislation by the Nazi Occupation forces or the Vichy authorities during World War II and to compensate the victims for the confiscations,” including for “property confiscated on arrival at the internment camps.” Jeannoutot
Decl. ¶ 4.

11
CIVS is an administrative body that reports to the
Prime Minister. It has broad jurisdiction to consider
claims for compensation arising from Holocaust-era takings. The decree that established CIVS charged it with
“examining individual claims presented by the victims or
their heirs to make reparations for damage resulting from
spoliations of property that occurred due to the anti-Semitic laws passed during the Occupation, both by the occupant and by the Vichy authorities.” Décret No. 99-778,
art. 1, https://bit.ly/2XoQV8p; see also Scope, CIVS,
https://bit.ly/3m9AI1F. The decree further charged CIVS
with “researching and proposing appropriate measures of
reparation, restitution, and compensation.” Décret No.
99-778, art. 1.
Exercising this broad authority, CIVS considers that
“[a]ll the spoliations that occurred on French territory
during the deportations of Jews from France during
World War II are … spoliations resulting from the AntiSemitic laws that were in effect during the Occupation.”
Suppl. Jeannoutot Decl. ¶ 3. Accordingly, all persons (or
descendants of such persons) who suffered such spoliations—regardless of current nationality or country of residence—are eligible to apply for compensation. See Opening a case file, CIVS, https://bit.ly/35lconD.
The CIVS compensation process is thorough, comprehensive, and accessible. As CIVS Chairman Michel
Jeannoutot has explained, the claims process includes
special archival research by an administrative unit, followed by an investigation by sitting or retired French
judges known as “rapporteurs.” Jeannoutot Decl. ¶¶ 33,
34. Claimants are permitted to have representatives assist them throughout the process, and victims’ organizations render additional assistance in cases where claimants are outside France.

12
Based on the investigative findings, a rapporteur prepares a compensation proposal reflecting the type and extent of claimed and verified spoliations. See id. ¶ 39. Given
the difficulties in gathering evidence of losses, CIVS can
take into account claimants’ good-faith claims that spoliation occurred, as well as their estimates of the value of expropriated property. Id. ¶ 14. Indeed, claimants are not
required to present evidence of spoliations, and even
where CIVS does not discover any evidence in the course
of its research, CIVS frequently recommends compensation. Suppl. Jeannoutot Decl. ¶ 7.
A deliberative panel then conducts a hearing, where
the claimant may participate with counsel, before issuing
a compensation decision. Jeannoutot Decl. ¶¶ 45, 47. CIVS
can recommend more compensation than the claimant requested, the rapporteur proposed, or the evidence in the
archives shows. See Suppl. Jeannoutot Decl. ¶¶ 7–8. Once
the Prime Minister approves the decision, it goes to the
National War Veterans Administration for payment.
Jeannoutot Decl. ¶ 50. The Prime Minister’s approval or
denial of a claim is subject to judicial review. Ibid. While
“only a few” claimants have appealed their awards,
French courts have deemed some of those appeals admissible, and in some instances, CIVS has revised its awards
as a result. Ibid.
CIVS issues regular public reports describing its activities, and makes publicly available the method that it
has developed for evaluating claims. CIVS has publicized
the availability of its claims procedure and mechanisms to
ensure that claimants around the world are aware of the
remedies that CIVS offers.
Over the two decades of its existence, CIVS has
awarded 538,201,871 to 29,693 claimants through February 2020—an average of 18,126 (approximately $21,569)

13
per claimant. See Key figures (February 2020), CIVS,
https://bit.ly/3mjVs78. “[T]here is no ceiling on the
amount of compensation that CIVS can provide,” Jeannoutot Decl. ¶ 13. To this day, claimants continue to submit claims to CIVS, and CIVS continues to process these
claims and recommend compensation.
The CRIF—an umbrella organization whose members include more than 70 institutions that collectively
represent the Jewish community of France—has expressed its approval of the way that the French government, and CIVS in particular, has handled claims for Holocaust-era injuries. In its amicus brief submitted in the
Scalin case, the CRIF noted that “the range of programs
implemented by France are quite satisfactory and are
broader and more generous tha[n] those established by
many other European countries.” Amicus Brief of the
Conseil Représentatif des Institutions juives de France,
Scalin, Case No. 15-cv-3362 (N.D. Ill.), ECF No. 20-1, at
2. The CRIF further stated that it “finds [CIVS] to be
suitable and fair and is an effective response for handling
the compensation claims of persons who have been victims
of theft, or their descendants. The CRIF is particularly
satisfied with the manner in which the CIVS has conducted its work and believes it has consistently provided
fair and benevolent compensation.” Id. at 3.
II. The United States Supports France’s Efforts To
Provide Reparations For Holocaust Victims

The United States has repeatedly expressed its support for the compensation programs that France has established to redress Holocaust-era injuries, and has “engage[d] in diplomatic efforts aimed at supporting an improving these alternative fora.” Freund, 592 F. Supp. 2d
at 569. This is in line with the United States’ general policy
that “concerned parties, foreign governments, and non-

14
governmental organizations should act to resolve matters
of Holocaust-era restitution and compensation through
dialogue, negotiation, and cooperation, rather than subject victims and their families to the prolonged uncertainty and delay that accompany litigation.” Eizenstat
Decl. ¶ 3. The United States’ preference for negotiated solutions is rooted in its belief—which France shares—that
“available funds should be spent on the victims and not on
litigation, and, importantly, also because the number of
victims who can be covered by a negotiated settlement is
often greater than can be achieved through litigation.”
Ibid.
Most recently, in December 2014, the United States
and France signed an Executive Agreement on Compensation for Certain Victims of Holocaust-Related Deportation from France Who Are Not Covered by French Programs. Statement of Interest of the United States, Ex. B,
Scalin, Case No. 15-cv-3362 (N.D. Ill.), ECF No. 63-2.
That agreement expanded France’s pension program to
include relief for U.S. citizens and other foreign nationals
who had not previously been eligible to receive compensation. Id. pmbl. Specifically, France provided the United
States with a lump sum of $60 million to administer a compensation program for U.S. citizens and others who are
not covered by the original French pension programs for
deportee, or by international agreements between France
and other countries. Id. arts. 3, 4(1).
The 2014 Executive Agreement specifically recognizes that France has “implemented extensive measures
to restore the property of and to provide compensation for
victims of anti-Semitic persecution carried out during the
Second World War by the German Occupation authorities
or the Vichy Government,” and that the French government “remains committed to providing compensation for
the wrongs suffered by Holocaust victims deported from

15
France through such measures to individuals who are eligible under French programs.” Id. pmbl.
The Executive Agreement further states that
“France, having agreed to provide fair and equitable compensation to [certain Holocaust victims] under this Agreement, should not be asked or expected to satisfy further
claims in connection with deportations from France during the Second World War before any court or other body
of the United States of America or elsewhere.” Ibid. The
United States and France expressed their shared intent
“that this Agreement should, to the greatest extent possible, secure for France an enduring legal peace regarding
any claims or initiatives related to the deportation of Holocaust victims from France.” Ibid. In other words, the
United States and France both recognized that the extensive administrative programs established in France (and
supplemented by the 2014 Executive Agreement) to cover
the claims arising from Holocaust-era injuries in France
are to serve as the exclusive mechanisms for resolving
such claims.
The United States has reiterated these views on subsequent occasions. In its submissions in the district court
and the court of appeals in the Scalin litigation, the
United States emphasized that “[t]he administrative fora
created by the French government to redress Holocaustera claims, including the CIVS, provide benefits to the
public interest that reach beyond the scope of any single
litigation. … The policy of the United States is that these
fora present the best opportunity to provide Holocaust
victims redress as quickly as possible.” U.S. Statement of
Interest at 21; see also Br. for the United States as Amicus Curiae at 18, Case No. 18-1887 (7th Cir.), ECF No. 39
[U.S. Amicus Br.] (“[T]he United States has a longstanding policy supporting the resolution of such claims
through reparation mechanisms established by the

16
foreign states in which the claims arose … .”). The United
States highlighted its understanding—shared by
France—“that parties who are eligible to assert claims
through programs established by France should seek relief in the French administrative fora rather than in U.S.
courts.” U.S. Statement of Interest at 15.
With respect to CIVS in particular, the United States
considers CIVS to be the appropriate forum for Holocaust
victims and their heirs to pursue claims for Holocaust-era
takings that occurred in France. See U.S. Amicus Br. 10,
18; U.S. Statement of Interest at 15. The United States
praised the accessibility and transparency of CIVS, and
has highlighted the relaxed standards of evidence that
CIVS applies to compensation claims. U.S. Amicus Br. 18;
see also U.S. Statement of Interest at 11. The United
States has explained that CIVS has made “speedy, dignified payments to many deserving victims and is designed
to provide comprehensive relief to a broader class of victims than would be possible in United States judicial proceedings.” U.S. Statement of Interest at 11. The United
States has further reiterated its support for France’s efforts to “provide a redress process and compensation for
victims in a manner that serves the vital interest of compensating Holocaust victims more quickly and efficiently
than the litigation process.” Id. at 13.
III. Comity-Based Abstention Permits U.S. Courts To
Defer To Robust Remedial Programs Such As CIVS

1. CIVS is a paradigm example of the kind of foreign
remedial program to which U.S. courts should defer before adjudicating expropriation claims against a foreign
sovereign occurring within its territory. Two federal
courts have closely examined the features of CIVS and determined that the program offers comprehensive remedies that plaintiffs should be required to pursue before a

17
U.S. court exercises jurisdiction under the FSIA over
claims arising from Holocaust-era spoliations.
In Freund v. Republic of France, 592 F. Supp. 2d 540,
plaintiffs brought claims against SNCF for the alleged
spoliation of property during deportation from France.
While the district court held (and the Second Circuit
agreed, 391 F. App’x at 941) that the plaintiffs had not established that the expropriation exception to the FSIA applied to their claims against SNCF, the district court also
held, in the alternative, that it would abstain based on the
political question doctrine and international comity. 592
F. Supp. 2d at 551–52.
In reaching that alternative conclusion, the district
court determined the compensation programs in France
are “appropriate and adequate alternative fora for the
pursuit of the eligible Plaintiffs’ claims” arising from Holocaust-era takings. Id. at 576. The district court noted in
particular the accessibility of CIVS and the relaxed standards of proof that it applies. The district court specifically
observed, moreover, that the United States had opined
that CIVS would “without question, provide benefits to
more victims, and will do so faster and with less uncertainty than would litigation, with its attendant delays, uncertainty, and legal hurdles.” Id. at 577. The district court
declined to second-guess the wish of CIVS’s creators (as
well as the United States) to “focus on flexible and expedient recovery for as broad a class of victims as possible.”
Id. at 577–78.
Addressing claims materially identical to those in
Freund, the district court in Scalin likewise held that the
plaintiffs should be required to pursue their spoliation
claims through the CIVS process in the first instance, before a U.S. court exercises subject-matter jurisdiction under the FSIA. 2018 WL 1469015, at *12. The court

18
carefully reviewed all of the evidence before it regarding
the CIVS compensation program. The district court credited the declarations of CIVS Chairman Michel Jeannoutot, the U.S. statement of interest, and the views of the
CRIF, all of which demonstrated that the remedies CIVS
offers are accessible, fair, and comprehensive. The district
court was satisfied that plaintiffs seeking compensation
for Holocaust-era spoliations that occurred during deportations from France would receive fair treatment before
CIVS. Id. at *11.
In particular, the district court highlighted Mr. Jeannoutot’s statement in his declaration that “if items belonging to Plaintiffs’ relatives were seized during the boarding
of deportation trains or on the trains in French territory,
CIVS is willing and competent to entertain their claims
and recommend compensation.”3 Id. at *6. And the plaintiffs had not “show[n] convincingly that [remedies available through CIVS] are clearly a sham or inadequate or
that their application is unreasonably prolonged.” Id. at
*8.
The district court noted that the fact “that CIVS is a
non-judicial forum and does not operate exactly as a U.S.
court … does not mean that it is inadequate.” Id. at *9. On
the contrary, “there appear to be many aspects of the
Commission’s framework that arguably make it a more
favorable forum than [U.S. courts].” Id. at *11. “There is
no statute of limitations or deadline for the submission of
The district court noted that even if CIVS had not paid compensation for claims for property taken on deportation trains in the
past, that may be “because there is no evidence (in the possession of
potential claimants or in the archives consulted by CIVS) that
SNCF expropriated deportees’ property—not because if SNCF did
so, CIVS would not compensate claimants appropriately.” Scalin,
2018 WL 1469015, at *9.
3

19
claims,” and the relaxed evidentiary standards CIVS applies “fall[] short of the preponderance of the evidence
standard that would be applied [in U.S. court].” Id. at *10.
Accordingly, the Court saw no “legally compelling reason” to exercise jurisdiction over the plaintiffs’ claims, at
least until they had pursued the remedies available to
them through CIVS. Id. at *8.
The court’s conclusion that abstention out of deference to CIVS was further bolstered by the United States’
position that CIVS “is meant to provide the exclusive remedy for claims such as Plaintiffs’ claims,” id. at *11, as well
as the United States’ consistent support for French efforts to provide compensation for Holocaust-era takings,
U.S. Statement of Interest at 2, 5–7; see also 2018 WL
1469015, at *11. The views of the United States in this regard represent “the considered judgment of the Executive of a particular question of foreign policy.” Republic of
Austria v. Altmann, 541 U.S. 677, 702 (2004); Sosa v. Alvarez Machain, 542 U.S. 692, 733 n.21 (2004) (noting the
“strong argument that federal courts should give serious
weight to the Executive Branch’s view of [a given] case’s
impact on foreign policy”). The district court appropriately gave serious consideration to the United States’
views. Scalin, 2018 WL 1469015, at *11. As the district
court explained, “the fact that the United States and
France continue to work together to enhance the French
compensation programs suggests that to allow these
claims to proceed [in U.S. courts] would undermine, or potentially interfere with, the two countries’ efforts to create
programs that are more effective and efficient than litigation.” Ibid.
2. The foregoing demonstrates the wisdom of recognizing that U.S. courts have the discretion to abstain, in
appropriate cases, from exercising jurisdiction under the
FSIA’s expropriation exception as a matter of

20
international comity. See Kiobel v. Royal Dutch Petroleum Co., 569 U.S. 108, 128–29 (2013) (Breyer, J., concurring) (emphasizing that the exercise of jurisdiction “must,
in my view, also be consistent with those notions of comity
that lead each nation to respect the sovereign rights of
other nations by limiting the reach of its own laws and
their enforcement”) (citing Sosa, 542 U.S. at 761 (Breyer,
J., concurring in part and concurring in the judgment)).
As the Seventh Circuit has recognized, international
comity—a general principle recognized in international
law as well as in the common law—provides a basis for a
prudential abstention requirement. See Fischer, 777 F.3d
at 859; Abelesz, 692 F.3d at 681 (noting “the comity and
reciprocity concerns underpinning the domestic exhaustion rule”). The common-law doctrine of international
comity recognizes that courts, giving “due regard both to
international duty and convenience, and to the rights of its
own citizens, or of other persons who are under the protection of its laws,” may defer to the “legislative, executive
or judicial acts of another nation.” Hilton v. Guyot, 159
U.S. 113, 164 (1895). Comity with regard to foreign courts
recognizes that “[t]he dignity of a foreign state is not enhanced if other nations bypass its courts without good
cause.” Republic of Philippines v. Pimentel, 553 U.S. 851,
866 (2008). Accordingly, the doctrine of international comity permits courts to dismiss claims so that another sovereign with an interest in adjudicating those claims may do
so within its own territory and legal system. See, e.g., Mujica v. AirScan, 771 F.3d 580, 614–15 (9th Cir. 2014).
Certain elements of the comity analysis may be intertwined with a forum non conveniens inquiry, see Cooper
v. Tokyo Elec. Power Co., 860 F.3d 1193, 1210–11 (9th Cir.
2017). But the concerns that international comity serves
are not merely a matter of convenience; they are a matter
of respect and consideration for sovereign interests,

21
which other doctrines do not fully address. Courts thus
have long recognized international comity as a standalone
concept and a distinct basis for dismissal in appropriate
cases. See id. at 1290–10; see also Mujica, 771 F.3d at 598.
The FSIA does not displace this well-established
common-law doctrine. “Congress is understood to legislate against a background of common-law principles, and
when a statute covers an issue previously governed by the
common law, we interpret the statute with the presumption that Congress intended to retain the substance of the
common law.” Samantar v. Yousuf, 560 U.S. 305, 320 n.13
(2010) (ellipsis, internal citations, and quotation marks
omitted). Accordingly, when Congress wishes to eliminate
foreign-policy abstention doctrines related to sovereign
immunity, it does so expressly. For example, Congress in
1964 enacted the “Second Hickenlooper Amendment,” 22
U.S.C. § 2370(e)(2), expressly barring reliance on the actof-state doctrine to abstain from adjudicating claims of expropriation by a foreign state in violation of international
law. But Congress has taken no such measures with respect to the doctrine of international comity.
On the contrary, this Court has expressly recognized
that, even as Congress created in the FSIA a “comprehensive set of legal standards governing claims of immunity in every civil action against a foreign state,” Republic of Argentina v. NML Capital, Ltd., 573 U.S. 134,
141 (2014) (emphasis added), Congress did not disturb
federal courts’ ability to apply “other sources of law” in
considering whether to exercise jurisdiction over foreign
sovereigns, id. at 146 n.6. This Court made clear that
courts “may appropriately consider comity interests” and
decline to exercise jurisdiction under the FSIA. Ibid. Indeed, “limiting principles such as exhaustion, forum non
conveniens, and comity” help to “minimize international
friction” and may be appropriate bases to decline

22
jurisdiction. Kiobel, 569 U.S. at 133 (Breyer, J., concurring); see also Fischer, 777 F.3d at 859 (noting that NML
Capital did not address foreign sovereigns’ ability to rely
on comity and other doctrines designed to avoid international friction).
The D.C. Circuit’s conclusion to the contrary in
Philipp not only misread NML Capital; it also ignored
that, in enacting the FSIA, Congress preserved foreign
sovereigns’ ability to invoke international comity as a basis for dismissal of claims brought against them in U.S.
court. Specifically, 28 U.S.C. § 1606 provides, in relevant
part, that a foreign state not immune from jurisdiction
“shall be liable in the same manner and to the same extent
as a private individual under like circumstances.” Private
litigants routinely argue in their defense that a U.S. court
should dismiss claims against them on the basis of international comity. Mujica, 771 F.3d at 615 (claims against
private defendants are “nonjusticiable under the doctrine
of international comity”); JP Morgan Chase Bank v. Altos
Hornos de Mexico, S.A. de C.V., 412 F.3d 418, 429 (2d Cir.
2005); Ungaro-Benages v. Dresdner Bank AG, 379 F.3d
1227, 1237–41 (11th Cir. 2004). The same defense should
therefore be available to foreign sovereigns. Indeed, it is
implausible that Congress intended to make it “easier to
sue foreign sovereigns than to sue private entities in a
United States court.” Fischer, 777 F.3d at 859.
3. Permitting courts to abstain from exercising jurisdiction under the FSIA as a matter of international comity is particularly appropriate in cases arising from events
or actions of national significance, where foreign sovereigns have made consistent and diligent efforts to redress
historical wrongs. That is particularly so where the resulting mechanisms, like CIVS, are indisputably accessible
and effective, and have been designed—with the support
of the United States—to serve as the exclusive remedy for

23
claimants’ injuries. See Altmann, 541 U.S. at 714 (Breyer,
J., concurring) (“[T]he United States may enter a statement of interest counseling dismissal. Such a statement
may refer, not only to sovereign immunity, but also to
other grounds of dismissal, such as the presence of superior alternative and exclusive remedies … .”) (internal citation omitted). Due respect for foreign sovereigns requires that, “absent governmental policies or evidence
that … discrimination is barring access to or punishing
resort to domestic remedies, United States courts should
not take the step of hearing these claims without first giving the [foreign sovereign’s] courts a chance to rule on
them. To hold otherwise would imply that United States
courts should presume that the courts of other nations
cannot fairly hear claims brought by historically persecuted groups.” Fischer, 777 F.3d at 864–65. U.S. courts
should not lightly presume that foreign sovereigns are unable or unwilling to address serious grievances fairly and
impartially.
Comity-based abstention also allows U.S. courts to
remain sensitive to the reciprocity and other foreign policy concerns inherent in the treatment of foreign sovereigns within the U.S. judicial system. Many cases brought
against foreign sovereigns have specific implications for
U.S. foreign policy—implications that, in the view of the
United States government, may counsel strongly against
exercising jurisdiction. See Sosa, 542 U.S. at 733 n.21. The
D.C. Circuit’s approach leaves no room to consider these
consequences, even where the United States has expressed its views by filing a statement of interest in the
litigation urging abstention or dismissal. As the Seventh
Circuit has pointed out, the United States would be
greatly insulted if a foreign court were to order the United
States to pay enormous sums to plaintiffs “based on
events that happened generations ago in the United

24
States itself, without any efforts to secure just compensation through U.S. courts. If U.S. courts are ready to exercise jurisdiction to right wrongs all over the world, including those of past generations, we should not complain if
other countries’ courts decide to do the same.” Abelesz,
692 F.3d at 682.
Comity-based abstention may not be appropriate in
every situation. It is incumbent upon U.S. courts to scrutinize the nature and adequacy of foreign remedial
measures before deferring to them. But the D.C. Circuit’s
inflexible, bright-line rule risks undermining the integrity
of legitimate compensation mechanisms that foreign sovereigns have designed for the precise purpose of affording
claimants fair and expeditious relief—and that, by virtually all accounts, have achieved that purpose. Neither the
FSIA nor any compelling policy reason supports that result.

25
CONCLUSION

For the foregoing reasons, the decisions below should
be reversed.
Respectfully submitted.
R. REEVES ANDERSON
ARNOLD & PORTER
KAYE SCHOLER LLP
1144 Fifteenth Street
Suite 3100
Denver, CO 80202
(303) 863-1000

JOHN B. BELLINGER, III
Counsel of Record
SALLY L. PEI
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
(202) 942-5000
John.Bellinger@arnoldporter.com

SEPTEMBER 2020

ADDENDA

ADDENDUM A

____________________________________
KAREN SCALIN, JOSIANE
)
PIQUARD and ROLAND
)
CHERRIER,
)
)
Plaintiffs,
)
)
v.
)
)
SOCIÉTÉ NATIONALE DES
)
CHEMINS DE FER FRANÇAIS,
)
)
Defendant.
)
____________________________________)

Case No.
15-cv-3362
[N.D. Ill.]

DECLARATION OF MICHEL JEANNOUTOT
IN SUPPORT OF MOTION TO DISMISS OF
SOCIÉTÉ NATIONALE DES
CHEMINS DE FER FRANÇAIS
I, the undersigned, Michel Jeannoutot, declare that:
1. I have been the Chairman of the Commission for
the Compensation of Victims of Spoliations Resulting
from the Anti-Semitic Legislation in Force During the Occupation, or “CIVS,” since September 10, 2011. I am authorized to file this declaration in support of Société Nationale des Chemins de fer Français’ motion to dismiss.
2. I am also an Honorary Judge of the Court of Cassation, the highest court in the French judiciary. I was
also Chief Justice of the Bastia, Chambery and then the
Dijon Courts of Appeal between 1998 and 2009.

(1a)

2a
3. As Chairman of CIVS, I am familiar with all the
aspects: the reasons it was formed, its purpose, the categories of claims that can entitle a claimant to compensation and its procedures. I am also familiar with the institutional responsibilities of CIVS and its fundamental role
of compensating the victims of the Nazi Occupation in
France.
4. The French Republic established CIVS by decree
of September 10, 1999 to investigate the confiscations carried out under the Anti-Semitic Legislation by the Nazi
Occupation forces or the Vichy authorities during World
War II and to compensate the victims for the confiscations. As of December 31, 2014, the victims of the Holocaust or their children, grandchildren and all other legal
heirs or assigns, had filed 28,829 claims with CIVS. Of
those, 19,174 claims were for “material spoliations,” most
of which were for property confiscated on arrival at the
internment camps; 9,655 claims were for “bank-related
spoliations,” in other words, seizures of assets in banks or
contents of safety deposit boxes. France has not set a ceiling for the amount of compensation. As of December 31,
2014, nearly 500 million euros in compensation
(483,472,740 euros) have been recommended for claims
for material spoliations and 51,372,860 euros for bank-related spoliations. Nor has France set a deadline for filing
claims with CIVS. All spoliations committed on territory
where French sovereignty was exercised can obtain compensation. For the remainder, as of today, regardless of
the nationality of the spoliation victims, 20.5 percent of the
claims that were submitted to CIVS during the first 10
years of its operations came from other countries, and 7.5
percent of those came from the United States.
History and Purpose of CIVS

5. The French Republic has established several programs to compensate the victims of the Holocaust and/or

3a
their legal heirs or assigns. On July 16, 1995, President
Jacques Chirac spoke of the “unremitting debt” of the Nation to the Jews of France (about 300,000 in 1939, 40 percent of whom were French citizens), including the 76,000
Jews deported by the Nazi Occupation forces or the Vichy
regime.
6. In 1997, the French government created the Mattéoli Working Party. This working party conducted a
thorough investigation into the confiscations of property
and all valuables in France occupied by the Nazis Resulting from the Anti-Semitic Legislation, including legislation on persons deported from France. The working party
produced an exhaustive 3,000-page report that included
recommendations for the government to repair these
wrongs promptly and decisively. One such recommendation was that the government establish a body charged
with examining claims that were submitted by the victims
of the Anti-Semitic legislation passed by France under the
Nazi occupation.
7. The French Republic followed the Mattéoli
Working Party recommendation and created CIVS on
September 10, 1999. Its role is “to review individual claims
submitted by victims or their legal heirs or assigns to receive reparations for losses caused by the spoliations of
property Resulting from Anti-Semitic Legislation in
Force During the Occupation, either by the occupying authorities or the Vichy Authorities,” and “to draft and propose suitable reparation or compensation measures.”
Organizational Overview of CIVS

8. CIVS is an administrative commission of the
French government under the Prime Minister. The Commission is not a court. It investigates claims, determines
the nature and extent of material losses and submits recommendations for compensation to the Prime Minister or
any other institution involved, and to banks in particular.

4a
Action has always been taken on the recommendations
that are issued in accordance with the commitments made
by the Prime Minister and the banks.
9. CIVS consists of three divisions. The first is the
Administrative Unit, which initiates the process by logging in the claim, contacting the claimants and conducting
research in specialized archives. The second is the Rapporteurs, who are judges in one of the French judicial or
administrative jurisdictions. They review the claims and
propose an assessment of losses after the Principal Rapporteur of CIVS approves the reports. The third division
is the Hearings Secretariat, which organizes the hearings
of the Deliberative Panel and then issues a recommendation on the claim and proposes the amount of compensation.
10. When it was established, CIVS launched an international campaign in the print and radio media to notify
potential claimants of their right to compensation and to
inform institutions that deal with matters related to the
Holocaust and the key Jewish organizations about the
Commission. CIVS also maintains a telephone line to provide assistance to potential claimants and interested third
parties, as well as a web site in French, English, German
and Hebrew. The web site contains information about the
Commission, answers to the most frequently asked questions, claim forms and other documents on the reparation
measures for the Holocaust in France. Each year CIVS
publishes a public report of its activity and it has published a special report on the first ten years of its operations.
Principles Underlying the Claim Process

11. CIVS operates according to three principles, and
underlie its approach to compensating Holocaust victims:
equity, pragmatism and promptness.

5a
12. CIVS must answer claimants promptly, who may
be elderly or in a difficult financial situation. Therefore,
CIVS expedites the proceedings of direct victims of spoliations and those who are elderly or in a financially or otherwise difficult situation.
13. CIVS seeks to provide full compensation to each
claimant for his or her losses, or at least to get as close to
full compensation as possible. Moreover, there is no ceiling on the amount of compensation that CIVS can provide.
14. CIVS considers that claimants are acting in good
faith when they apply for compensation for the losses they
sustained. In many cases, it is impossible to gather evidence of losses sustained during deportations, internments or other events in Nazi Occupied France. Therefore, reflecting its pragmatic approach, CIVS has often
relied on good-faith estimates in lieu of specific evidence
of losses sustained when such evidence did not exist. Estimates may also suffice to prove material losses that occurred as part of everyday life or other plausible losses,
so long as the claim is based on a coherent statement.
Compensation decisions based on a claimant’s supposed
good faith also follow the principle that similarly-situated
victims should receive the same treatment.
15. Claimants may apply for compensation from
CIVS and there is no opposition based on the statute of
limitations. CIVS is not subject to provisions of the law
that deals with the statute of limitations, which would
have resulted in the dismissal of the great majority of
claims. Moreover, France has not set a deadline to submit
claims to CIVS, unlike some programs in other European
countries.
16. Finally, the CIVS process lightens the burden of
proof on claimants, whose declarations are always presumed to be made in good faith. Personnel and rapporteurs frequently communicate with claimants and their

6a
representatives to assist them in managing each step of
the claims process.
Eligibility for CIVS Compensation
A.

Eligible claimants

17. Claimants of any nationality are eligible to submit a claim for compensation to CIVS. While most claimants reside in France, a certain number reside in the
United States, Israel or other countries. Most spoliation
victims were born in European countries other than
France, although many of these victims were born in
France, Germany, Ukraine, Hungary and in a number of
Eastern European countries.
18. Direct victims of spoliations may apply for compensation, as may their children, grandchildren, spouses,
brother, sisters, nieces, nephews, great nephews and
great nieces, in addition to all other legal heirs or assigns,
whether they are family members or not, according to the
rules of the governing law of succession.
19. All victims of spoliations that resulted from the
Anti-Semitic Legislation in Force During the Occupation
can receive compensation. Therefore, only the application
of these laws is taken into consideration as a cause of spoliation, and not just the fact that the victim is Jewish.
B. Eligible claims

20. CIVS was established to review individual claims
submitted by the victims or by their legal heirs or assigns
to repair losses caused by the spoliations of property that
occurred due to the Anti-Semitic Legislation in Force
During the Occupation, by the Occupier and by the Vichy
authorities. Claims for “material spoliations” and “bankrelated spoliations,” as provided for in the Washington
Agreement between France and the United States of January 18, 2001, can be compensated by CIVS. Damages of

7a
a physical or moral nature are not included in the scope of
compensation.
i.

Material spoliations

21. CIVS processes claims from persons that sustained material losses that resulted from the Anti-Semitic
Legislation in Force During the Occupation, attributable
to the French or Nazi Occupying authorities on French
territory and assimilated territories. CIVS compensates
spoliations perpetrated by public or private entities, such
as insurance companies, banks or the Caisse des Dépôts
et Consignations (CDC). To my knowledge, CIVS has
never logged in a claim for compensation for spoliations
attributable to the Société nationale des chemins de fer
français (“SNCF”) or to any transportation company. If
such claims were filed, they would be eligible for compensation by CIVS according to the current laws. The confiscations that have resulted in compensation to date are
confiscations that were made during arrests or upon arriving in the camps.
22. It is possible to obtain compensation through
CIVS for a wide variety of material losses, including but
not limited to:

confiscation of money, personal property or liquid assets

lootings of family residences or apartments

work-related losses (such as merchandise inventory, raw materials, machines and equipment as
well as losses of customer base and businesses)

confiscation of money or personal property in
the French internment camps, on the occasion
of transport to a destination or upon departure
from the internment camps

confiscation of vehicles

8a


confiscation of works of art or other cultural
property

confiscation of real estate

money paid to human smugglers to leave Nazi
Occupied France to then enter Switzerland or
Spain or, before 1943, to move from the occupied
zone to the unoccupied zone

confiscation of personal effects and furniture
items located in residences that were used to
hide victims during the Nazi Occupation

unpaid veterans’ pensions.
23. The claims for material spoliations that are filed
most often with CIVS are claims for confiscation of
money, jewelry, valuables, liquid assets or personal property of the victims at the time of their arrest, entry or detention at French internment camps, and in particular
Drancy, Mérignac and others. According to the records of
the Mattéoli Working Party, the victims’ property was
confiscated by French police and gendarmes or by the SS
and German military personnel.
24. Indeed, based on the findings of the Mattéoli
Working Party and records of police searches at internment camps, CIVS has observed that the average amount
of cash confiscated from the victims in these cases was
roughly 3,000 francs at that time, i.e. the equivalent of 930
euros today. This amount of 930 euros is used when the
amount confiscated is unknown or less than this amount.
When the amount is known and is higher, the recommended compensation is the known amount revalued in
euros. Compensation has already been paid for much
greater confiscated amounts.
25. Between 2000 and 2010, 60 percent of all case files
for material losses that were submitted to CIVS, or nearly
9,000 claims, were entitled to compensation for losses
caused by the confiscations from victims when they were

9a
transferred to or arrived at French internment camps. In
2010, CIVS had already issued recommendations for a total amount of 18,530,000 euros in compensation for confiscations.
ii.

Bank-related spoliations

26. Pursuant to the Washington Agreement between
France and the United States, certain financial institutions have established two compensation funds for bankrelated claims. The first fund, in the amount of
$50,000,000, has compensated victims whose assets have
been identified. The second fund, in the amount of
$22,500,000, has paid compensation in the form of a “lump
sum” for certain bank-related claims for which CIVS procedures were insufficient to determine the amount of the
loss. To date, CIVS has recommended 51,372,860 euros in
compensation for bank-related spoliations.
The Claims Process
A.

Filing a claim

27. Any person, regardless of country of residence,
can file a claim with CIVS, either in person or through an
appointed representative (an attorney, family member or
an organization that advocates on behalf of victims of the
Holocaust, such at the Holocaust Claims Processing Office in New York, for example). The claimant simply sends
a letter, fax or email. A claim form is also available on
CIVS web site. The process is free of charge and no special formal procedure is required. The Administrative
Unit logs in the claim upon receipt. It then notifies the
claimant that the claim has been received and also sends
the claimant a questionnaire and power of attorney form
to authorize CIVS to conduct the necessary searches concerning the victims and the spoliated property, at no
charge.

10a
28. A claimant is advised to mention as much information as possible on the claim form, and in particular the
claimant’s status, the type of property confiscated and
where, the capacity of other persons involved, etc. However, the Administrative Unit contacts claimants directly
to assist them to complete the questionnaire or retrieve
information that is essential for processing the claim.
Such communications are strictly confidential.
B. Researching a claim

29. After the questionnaire is logged in, the Administrative Unit forwards the claim to CIVS “Control Network” for research in the archives.
30. Research in the archives is an essential part of
the claim compensation process. For material losses, it
would be practically impossible to assess the property at
issue without such research. Research in the archives can
also uncover spoliations that were unknown at that time
and then they can be included in the claim.
31. In addition, research in the archives is important
because, according to one of the Mattéoli Working Party’s
recommendations, CIVS does not provide compensation
for claims that have previously received compensation under another program, such as the German Federal Compensation Act (BRüG) or the French law on war damages,
unless the compensation recommended under these arrangements did not really provide compensation for the
value of the spoliated property. Thus, prior to 2009, CIVS
sent more than 16,000 files to its Berlin office. Nearly 60
percent of these claims had already been compensated by
Germany to some extent. CIVS supplements the compensation paid by Germany or the compensation paid for war
damages if it deems this compensation insufficient.
32. The Control Unit reviews the claim and identifies
the various possible types of property reported confiscated, and it also uses the documents in the file as a basis.

11a
CIVS case officers forward copies of the relevant documentation to relevant sources of archives for research.
These include:
 National Archives of France (CIVS satellite office) and the archives in the French departments
 Paris Archives (CIVS satellite office)
 Berlin Archives (CIVS satellite office)
 Ministry of Culture, Department of Museums of
France
 Ministry of Foreign Affairs, Department of Archives
 Paris Police Headquarters
 Center of Contemporary Jewish Documentation
 Caisse des Dépôts et Consignations
 French Federation of Insurance Companies
33. Persons who submit a claim for compensation for
material spoliations that took place during arrest or internment at French camps may especially benefit from
research performed in certain collections of archives. For
example, CIVS has searched the files of the Caisse des
Dépôts et Consignations and found conclusive answers
about consignments of property that was confiscated from
persons detained at Drancy internment camp for over
3,600 claims. The CIVS research team that works at the
National Archives of France consults digitized records at
the Paris Police Headquarters of those arrested and detained at the Drancy, Pithiviers and Beaune-la-Rolande
internment camps.
C.

Investigating the Claim

34. The Minister of Justice appoints sitting or retired
judges, known as “rapporteurs,” to investigate CIVS
claims. In general, these judges are part of French judicial, administrative or financial jurisdictions and they

12a
spend several days a week investigating files that are submitted to CIVS.
35. The rapporteurs are responsible for conducting
an investigation for any claim at the conclusion of the research in the archives and they are to assemble all information to determine the existence and extent of spoliations. The rapporteurs may summon any person whose
testimony is deemed relevant and may request their opinion or the advice of certain government bodies or a qualified third party.
36. At this time there are 14 rapporteurs and one
Principal Rapporteur, who is also a judge and who oversees and coordinates the rapporteurs’ work.
37. A rapporteur assigned to a claim contacts the
claimant or the person representing the claimant to arrange a meeting. This meeting can be conducted in person, at the Commission’s offices or at the claimant’s (or
representative’s) residence if the claimant has health issues. The claimant may also request a meeting by telephone or letter correspondence.
38. The meeting between the rapporteur and the
claimant is meant to facilitate the claims process and ensure that claimants receive the full compensation to which
they are entitled. For example, the rapporteur may check
that claimants did not inadvertently fail to mention the
cases of spoliations in their claims. The rapporteur may
also consider it necessary to ask claimants questions
about their family, explain the rapporteur’s work to them
and solicit their opinion on the proposed compensation.
D. Rapporteur’s proposed compensation for a
claim

39. The rapporteur prepares a compensation proposal based on the type and extent of the verified spoliations. This amount is to include offsets, if any exist, for

13a
prior compensation that has already been paid by the
French or German authorities.
40. The rapporteurs calculate the loss based on the
specific characteristics of spoliations where feasible.
 Spoliations of property taken from residences are
appraised using criteria in the German BRüG Act
(based on the type of building, number of rooms
and occupants) or, if the property was insured,
based on the insurance policy.
 Material and bank-related losses are appraised
as of the date they occurred and are expressed at
their updated value.
 Businesses or work-related assets that are confiscated are valued based on specialized reference
work in the sector and following consultation with
businesses.
 Works of art are assessed based on an appraisal
by the Department of Museums of France or reference work specializing in prices for works of
art.
When the details of these characteristics are not known,
the rapporteur proposes lump-sum compensation.
41. Based on research in archives and the other relevant documents in the file, the rapporteur, in consultation
with the claimant, determines who the legal heirs or assigns are for compensation so that the “reserve portions”
are set aside for other legal heirs or assigns. This may require preparing the claimant’s family tree beforehand.
42. The rapporteur sends a first draft of the compensation proposal to the claimant for his or her opinion. At
that time the claimant may make comments or dispute the
proposal. In most cases, the claimant has agreed with the
rapporteur’s proposal.
43. At this point in the process, the claimant receives
a copy of the rapporteur’s report as well as his request for

14a
other documents or references in the claim file that may
be of use in supporting the claim. Even if the claimant
does not request them, in many cases the rapporteur
sends the claimant a copy of documents that support his
or her proposal or that may be of historical interest for the
victim or the victim’s family. Then the rapporteur submits
his report and the claim file to the Principal Rapporteur
who approves it and forwards it to the Hearings Secretariat.
44. If a claimant is not satisfied with the rapporteur’s
investigation, he or she may request that the rapporteur
conduct an additional investigation if he or she finds, for
example, that there is a material error in the first investigation, or if there is new evidence or information that has
been updated. If the rapporteur determines that these
conditions are not present, the claimant may contact the
Chairman of CIVS or Principal Rapporteur to request a
new investigation.
E. Hearings before the Deliberative Panel

45. Under the authority of the Chairman of CIVS,
the Hearings Secretariat then schedules a review of the
claim at a hearing of the Deliberative Panel. The panel is
comprised of members with extensive and relevant professional and personal experience in the field; there are
two sitting judges from the Court of Cassation, including
the chief justice, two members of the Council of State
[Conseil d’Etat], two senior advisors from the French Audit Office [Cour des Comptes], two university professors
and two prominent persons active in Jewish rights organizations.
46. The Principal Rapporteur assigns claims to the
Deliberative Panel either in plenary formation, with a
quorum of six members, or to a sub-commission with
three members, based on the complexity of the claim.

15a
47. The claimant is invited to attend the hearing and
may take the floor should he wish to do so. At the hearing,
the claimant may also be represented by an attorney or
any other person of his choosing, such as a family member.
48. CIVS has organized regular missions to Israel
and the United States so that residents of those countries,
who have submitted a substantial number of claims to
CIVS, can participate in the hearings more easily and
take part in the review of their claim, just like claimants
residing in France. Nearly 75 percent of all claimants
whose claims were on the agenda attended the hearings
held in the United States and Israel. Total compensation
for these claims has amounted to 20.7 millions euros.
49. The process for the Deliberative Panel hearing is
generally as follows: 1) the rapporteur makes his report
or it is read by the Hearings Secretary in the rapporteur’s
absence; 2) the claimant is invited to speak; 3) the Panel
asks any questions they may have of the claimant or rapporteur; 4) the government’s commissioner, appointed by
order of the Prime Minister, and who represents the government, gives a simple opinion on how to handle the
claim, although this opinion is not binding on the Deliberative Panel; and 5) the claimant may speak last. Then the
Panel deliberates and issues a recommendation for the
claim. The Principal Rapporteur attends all plenary sessions and some sub-commission sessions.
50. The Commission forwards the recommendation
to the Compensation Unit of the Prime Minister, which
contacts the claimant. Once approved by the Prime Minister, the compensation decision is sent to the National
War Veterans Administration (ONAC) for payment. Recommendations for compensation for bank-related spoliations are forwarded to the two funds administered by the
United Jewish Welfare Fund, which orders the CDC to
pay the amount. Decisions of the Prime Minister may be

16a
appealed to a French court of competent jurisdiction, but
given the degree of satisfaction that the CIVS process
provides for claimants, only a few claims have been appealed. Some appeals have been determined to be admissible, and then CIVS has proposed additional compensation.
51. When other potential legal heirs or assigns become known during the claims process, CIVS sets aside
their portion of the compensation for spoliation claim.
Such legal heirs or assigns, or their own legal heirs or assigns, are required to contact CIVS and submit the necessary documents to obtain their reserved share of compensation. CIVS has recommended compensation for several
thousand claims for the reserved portion of compensations. As of December 31, 2014, the government has
26,514,811 euros and the banks have $1,650,376 that is set
aside pending payment.
Results of the CIVS Compensation Program

52. As of December 31, 2014, 28,829 claims had been
logged in at CIVS; of those, 19,174 were for material spoliations, including looting of apartments, commercial and
industrial businesses, work-related property and confiscations of property in internment camps. The remaining
9,655 claims were for bank-related spoliations.
53. Between the time the Commission’s mission was
established and December 31, 2014, 483,472,740 euros
have been recommended for compensation for material
spoliations, and 51,372,860 euros for compensating bankrelated spoliations. These figures are constantly increasing.
The Claims Submitted in this Lawsuit
Are Covered Under CIVS

54. I have reviewed the allegations of the plaintiffs in
this lawsuit. Unless I am mistaken due to confusion in

17a
names, Mrs. Josiane Piquard and Mr. Fred Bender, son
of Julius and Karolina Bender, have contacted CIVS previously to obtain reparations for spoliations of which their
grandparents and parents were victims. At that time they
received compensation according to CIVS recommendations. They did not dispute this compensation.
55. Plaintiffs Josiane Piquard and Karen Scalin are
entitled to submit a new claim to CIVS based on facts that
were not presented to CIVS at the time of the previous
investigation, which is why no compensation was provided
for those facts. If the plaintiffs were to submit new information, CIVS would review it in accordance with the principles and procedures indicated in this document. Since
the acts described in the complaint took place on French
territory, the claims made in this lawsuit are covered by
CIVS.
56. Mr. Cherrier may file a claim with CIVS for spoliations committed in France, regardless of who the perpetrators of these spoliations are. The statute of limitations does not apply to him. There are no procedural rules
that could prevent him from filing his claim with CIVS.
I declare, under penalty of perjury under the laws of
the United States of America, that all of the foregoing is
true and correct.
Signed on July 13, 2015, in Paris, France.
_____________________
Michel Jeannoutot

18a
CERTIFICATION OF ACCURACY

Re: Translation of declaration of Michel Jeannoutot
I, Steven Sachs, hereby attest that I am a translator
certified by the American Translators Association for
French into English, that I have translated the attached
document, and that to the best of my knowledge, ability,
and belief this translation is a true, accurate, and complete
translation of the original French document that was provided to me.
[original signature]
Steven Sachs, CT
August 20, 2015
[seal]
[original French text omitted]

19a
ADDENDUM B

____________________________________
KAREN SCALIN, JOSIANE
)
PIQUARD and ROLAND
)
CHERRIER,
)
)
Plaintiffs,
)
)
v.
)
)
SOCIÉTÉ NATIONALE DES
)
CHEMINS DE FER FRANÇAIS,
)
)
Defendant.
)
____________________________________)

Case No.
15-cv-3362
[N.D. Ill.]

DECLARATION OF MICHEL JEANNOUTOT
IN SUPPORT OF MOTION TO DISMISS OF
SOCIÉTÉ NATIONALE DES
CHEMINS DE FER FRANÇAIS
I, the undersigned, Michel Jeannoutot, declare that:
1. I have been the Chairman of the Commission for
the Compensation of Victims of Spoliations Resulting
from the Anti-Semitic Legislation in Force During the Occupation, or “CIVS,” since September 10, 2011. I am authorized to file this supplemental declaration in support of
Société Nationale des Chemins de fer Français’ motion to
dismiss. The following declaration supplements my previous declaration dated July 13, 2015.
2. CIVS disagrees entirely with the statements
about it that the plaintiffs submitted to the Court. This
supplemental declaration does not aim to be a reply to
these statements, which are contestable. This declaration
provides in the most absolutely authoritative manner

20a
additional information regarding CIVS procedures, practices and rules.
3. All the spoliations that occurred on French territory during the deportations of Jews from France during
World War II are considered by CIVS as spoliations resulting from the Anti-Semitic laws that were in effect during the Occupation. Consequently, CIVS will cover claims
for any spoliation that occurred during embarkation or on
the trains or other means of transportation as part of
these deportations, just as CIVS covers claims for spoliations that occurred during arrests and arrivals in the internment camps. The decisive factor is that the spoliation
occurred on territories where French sovereignty was exercised.
4. CIVS is well aware that, for many victims and
their heirs, it may be extremely difficult to obtain evidence of spoliations during the Occupation. For this reason, CIVS procedures apply somewhat flexible standards
of evidence, for material spoliations and for bank-related
claims as well. As of the end of 2014, CIVS had processed
28,829 claims that resulted in nearly 500 million euros in
compensation for material spoliations, and more than 50
million euros for bank-related spoliations.
5. CIVS asks only for basic identification information that a potential claimant is required to provide in
his or her claim. This information consists of the name of
the deported person, the relationship between the claimant and victim, the existence of other potential heirs, the
victim’s place of residence if known, and a general description of the items the claimant believes were taken. If the
claimant already has evidence of the spoliation, CIVS will
use it in the more detailed research that it will conduct for
the claim. However, such evidence is not required for filing a claim or for obtaining compensation, as described
below.

21a
6. CIVS enlists substantial means to support and investigate claims from its claimants. Six of its permanent
employees work in the centers of the National Archives,
the Paris Archives and in Berlin to find evidence on which
these claims can be based or to update other spoliations.
To this same end, the Commission has a relationship with
the French Culture and Foreign Affairs Ministries, the
Paris Police Headquarters, the Caisse des Dépots et Consignations (CDC), bank archives and other archives services already mentioned in my declaration of July 13,
2015. The research in the archives that CIVS has carried
out has proven to be highly worthwhile. In more than
three quarters of the claims for compensation for spoliations, through this research, at least one document has
been discovered that provides circumstantial evidence of
spoliation.
7. CIVS may recommend compensation even in the
absence of evidence submitted by the claimant or by its
own research. To establish compensation, CIVS may consult its archives and the recommendations for compensation it has issued over the last 15 years for the 28,829
claims received. The recommendations made by CIVS to
address these cases for which there is no evidence and for
the other cases are based on principles of equity among
the claimants. For example, when a victim was deported,
it is presumed in all cases that the victim’s residence was
looted, and the recommended corresponding compensation is determined using a scale established by the German Federal Compensation Act (BRüG), and taking into
account the number of rooms in the residence, its geographic location and its level of comfort, and the number
of occupants. There is a second example: the amount of
compensation paid for the confiscation of property during
internment or an arrest. A lump sum of 930 euros per person is recommended by the Commission if there is no evidence, or if the archives show that the amount of a

22a
confiscation was lower than this. This lump sum was set
by reference to the average of the confiscations established by the work of the Mattéoli Working Party. This
information is recorded in the claimant’s file, which is always accessible throughout the procedure and after it has
been concluded.
8. CIVS may also recommend compensation that
exceeds the claimant’s expectations or the amount proposed by the rapporteur. Hence, based on the Commission’s opinion, the Prime Minister decided to compensate
a close relative of one of the plaintiffs, Mrs. Karen Scalin,
for an amount of 76,300 euros, whereas the amount requested was for a claim of USD 30,000 (which is slightly
more than 28,000 euros).
9. As in any administrative decision, decisions of the
Prime Minister based on a CIVS recommendation can be
appealed before the administrative tribunal and appeals
before the administrative court of appeals are possible, as
well as final appeals before the Council of State [Conseil
d’Etat]. Likewise, a recommendation for dismissal issued
by CIVS can be appealed before the administrative judge
because there is a complaint. For all of these appeals,
claimants may obtain total or partial legal aid based on
their income.
10. I have reviewed the allegations of Mrs. Scalin,
Mrs. Piquard and Mr. Cherrier, the plaintiffs. Based on
my experience as Chairman of CIVS, I conclude that if
items of the relatives of the plaintiffs were seized during
the boarding of deportation trains or on these trains in
French territory, CIVS is willing and competent to entertain these claims, and this also applies to spoliations during arrests, transfers and internment, and to recommend
compensation to which the claimant may be entitled.

23a
I declare, under penalty of perjury under the laws of the
United States of America, that all of the foregoing is true
and correct.
Signed on November 17, 2015, in Paris, France.
_____________________
Michel Jeannoutot

24a
CERTIFICATION OF ACCURACY

Re: Translation of supplemental declaration of Michel
Jeannoutot
I, Steven Sachs, hereby attest that I am a translator
certified by the American Translators Association for
French into English, that I have translated the attached
document, and that to the best of my knowledge, ability,
and belief this translation is a true, accurate, and complete
translation of the original French document that was provided to me.
[original signature]
Steven Sachs, CT
November 24, 2015
[seal]

[original French text omitted]

25a
ADDENDUM C
DECLARATION OF STUART E. EIZENSTAT

I, Stuart E. Eizenstat, hereby declare and state as
follows:
1. I am currently the Deputy Secretary of the
Treasury, as well as the Special Representative of the
President and the Secretary of State on Holocaust Issues,
positions I have held since July 1999. Prior to my current
position, I served as Under Secretary of State for Economic Affairs, and before that as Under Secretary of
Commerce and as U.S. Ambassador to the European Union. Since 1995, I have been the Secretary of State’s Special Envoy on Property Restitution in Central and Eastern Europe.
2. A number of lawsuits have been filed against
French and other banks that operated in France during
World War II on behalf of Holocaust survivors, other victims of the Nazi era, and their heirs to recover, among
other things, looted property and assets deposited in
dormant or confiscated bank accounts in France.
3. As a matter of policy, the United States Government believes that concerned parties, foreign governments, and non-governmental organizations should act to
resolve matters of Holocaust-era restitution and compensation through dialogue, negotiation, and cooperation, rather than subject victims and their families to the prolonged uncertainty and delay that accompany litigation.
This is because the U.S. supports efforts to bring some
measure of justice to these victims in their lifetimes, and
because the U.S. believes that available funds should be
spent on the victims and not on litigation, and, importantly, also because the number of victims who can be
covered by a negotiated settlement is often greater than
can be achieved through litigation. Much of my work over

26a
the past five years has been devoted to effectuating this
policy.
4. Most recently, and most relevant to this litigation, I led an inter-agency United States Government
team in negotiations resulting in the creation of a fund,
and improvements to a French governmental commission,
each of which will make payments to victims of French
banks during World War II. This declaration sets forth
the history of those negotiations, information about
France’s efforts in creating the commission and a related
foundation, and the basis upon which the United States
Government has concluded that it would be in its foreign
policy interest for that fund, commission, and foundation
to be the exclusive remedies and fora for all claims against
French banks arising out of their activities in France during World War II, including those raised in this litigation.
Background of French Banks Negotiations

5. The background of these negotiations encompasses three sets of simultaneous developments: the activities of the government of France, the activities of attorneys representing claimants against French banks,
and the activities of the United States Government.
6. In 1995, President Jacques Chirac of France publicly recognized France’s unremitting debt to the victims
of the German occupation and the Vichy Regime in
France, and pledged that the French Government would
take efforts to address all remaining vestiges of that period. One of those efforts was the creation, in January
1997, of the Study Mission on the Spoliation of Jews in
France, known as the “Mattéoli Mission,” the aim of which
was to study the conditions under which property belonging to French Jews was confiscated by the Nazis and Vichy authorities during the period 1940-1944. In April 2000,
the Mattéoli Mission issued a 3,000 page report detailing
various types of property spoliation that occurred and

27a
attempting to quantify the extent of such spoliation. With
respect to banking assets, the Mattéoli Mission found that
approximately 64,000 people, holding approximately
80,000 bank accounts, were deprived, either temporarily
or permanently, of over seven billion francs in assets.
While it was able to determine that some of that amount
was restituted, the fate of significant portions of the spoliated bank assets remains unknown.
7. The Mattéoli Mission made several recommendations for addressing these deprivations, two of which are
particularly relevant here. First, it recommended creation of a commission to hear claims by individuals who lost
property or are heirs to those who lost property that was
never restituted. That commission, the Commission for
the Compensation of the Victims of Acts of Despoilment
Committed Pursuant to Anti-Semitic Laws in Force During the Occupation (“Drai Commission”), was created in
September, 1999. Second, it recommended the creation of
a foundation to support Holocaust education and memory
and to-provide financial support to victims of persecution
and their families. That foundation, the Foundation for
Memory of the Shoah (“Foundation”), was created in December 2000. An orphan’s fund was also created for the
children of those killed during the Holocaust.
8. Meanwhile, in December 1997 and again in December 1998, attorneys representing individuals with
World War II era claims against French and other banks
filed class action law suits in the United States against
those banks to, among other things, recover unrestituted
assets belonging to them or their antecedents. Those
cases proceeded to the point where, on August 31, 2000, a
United States District Court denied a motion to dismiss
two of the cases, indicating that they would be allowed to
proceed.
9. Finally, and also simultaneously, from the Fall of
1998 through the Summer of 2000, I led an inter-agency

28a
United States Government team that facilitated a resolution of class action lawsuits filed in U.S. courts against
German companies arising from slave and forced labor
and other wrongs by those companies during the Nazi era.
Those negotiations resulted, in July 2000, in the creation
of a German Foundation, “Remembrance, Responsibility,
and the Future,” to make payments to victims of slave and
forced labor and all others who suffered at the hands of
German companies during the Nazi era.
10. While the German negotiations were proceeding,
I also led an inter-agency United States Government
team facilitating similar talks revolving around the role of
the Republic of Austria and Austrian companies in the
Nazi era and World War II. In October, 2000, those talks
resulted in the creation of a foundation in Austria to make
payments to those who worked as slave and forced laborers on the present day territory of the Republic of Austria.
11. Subsequent to the conclusion of the German negotiations, I was approached separately by the French
Government and by attorneys representing individuals
with claims against French banks arising out of the Holocaust. Each of them sought U.S. Government assistance
in facilitating a resolution of the pending class action litigation against French and other banks, following the
models established in the German and Austrian negotiations.
The Negotiations and Resolution

12. These negotiations commenced in November,
2000, with a set of meetings in Washington, D.C. Subsequent meetings were held in December in Washington, in
January in Paris, France, and most recently, on January
17-18 in Washington. The participants have included the
government of France, attorneys representing French
banks, attorneys representing claimants against the
banks, the Simon Wiesenthal Center of Paris, and the

29a
Conseil Representatif des Institutions Juives de France
(“CRIF”), an umbrella organization of French Jewish
groups. Through these participants, the victims’ interests
and those of the banks were broadly and vigorously represented.
13. The negotiations centered on the question of
whether the existing institutions created by the French the Drai Commission and Foundation - could sufficiently
ensure fair compensation for those who suffered losses at
the hands of French and other banks during the Holocaust. At the outset, the parties were far apart on both this
question, and on the amount of money necessary to provide such compensation.
14. One of the key issues for the attorneys representing the victims was to establish a mechanism for compensation to those people who, despite the impressive and exhaustive historical work of the Mattéoli Mission, could not
point to specific evidence of the existence and fate of their
or their families’ banking assets. Although the Drai Commission would make compensation awards to claimants on
very relaxed standards of proof, there could be no guarantee that all victims would receive some measure of justice.
15. At a negotiating session that lasted well into the
night of January 8-9, 2001, the parties reached a major
breakthrough. The French banks agreed to create a supplemental fund (the “Fund”), which would make payments to people with little or no documentation of their
claims, in addition to maintaining its commitment to pay
all well-documented claims through the workings of the
Drai Commission. In return, the plaintiffs, through their
attorneys, agreed that they would voluntarily dismiss
with prejudice all lawsuits currently pending against
French banks. In a lengthy negotiating session all night
on January 17 and during the day on January 18, we hammered out an agreement satisfactory to all parties.

30a
16. On January 18, 2001, the parties to the negotiations gathered in Washington to sign a Joint Statement
concluding the negotiations, and expressing their support
for the Fund, the Drai Commission, and the Foundation.
See Exh. A. Secretary of State Albright personally congratulated the parties on the successful conclusion of the
negotiations. On the same day, the United States and
France signed an Executive Agreement, in which France
committed that the operation of the Fund, the Drai Commission, and the Foundation would be governed by principles agreed by the parties to the negotiations, and the
United States committed to take certain steps to assist
French banks1 in achieving "legal peace" in,the United
States for claims arising out of their activities in France
during World War II. See Exh. B.
17. The role played by the United States in this negotiation was as a facilitator. The Executive Agreement
negotiated is not a government-to-government claims settlement agreement, and the United States has not extinguished the claims of its nationals or anyone else. Instead,
the intent of our participation was to bring together the
victims’ constituencies on one side and the French Government and banks on the other, to bring expeditious justice to the widest possible population of survivors, and to
help facilitate legal peace. Among these parties, the
United States facilitated the essential arrangement by
which the French side would establish the Fund, and
make certain enhancements to the Drai Commission and
Foundation, to compensate those who suffered at the
hands of banks operating in France during World War II,
and the class action representatives in pending United
The term “French banks” includes several non-French banks as
well - in the agreements of the parties, the word "Banks" is defined
to include all banks that are defendants in the litigation over World
War II era activities, as well as all banks that are members of a
French bank trade association.
1

31a
States litigation agreed to give up their claims. The
United States further contributed its own commitment to
advise U.S. courts of its foreign policy interests, described
in detail below, in the Fund, the Drai Commission, and the
Foundation being treated as the exclusive remedies for
Holocaust-related claims against French banks, and, concomitantly, in current and future litigation being dismissed.
The French Institutions

18. Taken together, the Fund, the Drai Commission,
and the Foundation are intended to accomplish a complete
disgorgement of any unjust enrichment and assets never
restituted to their rightful owners by the French government, banks, and other financial institutions, and will result in compensation to persons who suffered at the hands
of French banks during World War II.
19. The Drai Commission will operate as follows. It
will undertake a program to publicize world-wide its existence and the availability of its claims procedure and to
make its forms and application procedures easily available
to claimants at no cost to them. It will also cooperate with
organizations representing victims to ensure that potential claimants have knowledge of and access to the Commission. In addition, it will set up offices or contact centers
in the United States, in Israel, and in any other countries
in which a significant number of potential claimants live,
to allow claimants to contact the Commission and make
their claims without travel to France.
20. The Drai Commission will investigate and consider all claims by any person for compensation for any
bank or financial institution doing business in France during World War II and, if an account can be verified, determine the amount designed to compensate fully the claimants for any material damages. It will do so based on relaxed standards of proof. It can recognize as sufficient to

32a
authorize payment any of various standards of evidence,
including not only proof but also presumptions, indications, and even the “intimate conviction” of the Commission. Claimants can be represented by counsel or others
at every stage of the process, even if they cannot personally appear.
21. Once the Commission determines an award
should be made, it will refer that award to the French
banks. There is no monetary limit on such awards. The
banks have committed, in writing, to make full and
prompt payment of all awards recommended by the Commission, at current value, regardless of the eventual total
amount. As good faith evidence of that commitment, the
banks agreed during our negotiations to establish an escrow account, initially capitalized at $50 million and to be
replenished so as to ensure the amount in the account
never falls below $25 million, to be used to promptly pay
all Drai Commission awards.
22. The Commission has agreed to establish an appeals process. Claimants whose claims are decided by a
panel of Commission members are entitled to appeal to
the full Commission, while those whose claims are decided
in the first instance by the full Commission will be entitled
to seek reconsideration of such decisions, in each case on
the basis of new facts, new evidence, or material error
These internal appeals are in addition to whatever administrative and judicial appeals may exist under French law.
23. The Commission will also issue regular public reports that detail its activity as well as the criteria established through Commission decisions and the procedures
for processing claims. It will also provide a confidential
report on the case-by-case disposition of banking claims.
That report will be shared with the United States Government. The Drai Commission will also welcome representatives of Holocaust victims and the United States Government for exchanges of information, and it will operate with

33a
the maximum transparency provided for under French
law.
24. Individuals whose claims cannot be substantiated
by the Drai Commission, and whose names cannot be
matched to the list of 64,000 account holders prepared by
the Mattéoli Mission, but who submit credible evidence
that suggests they or their antecedents may have had
bank assets that were not subject to restitution, will be
referred by the Drai Commission to the Fund. The Fund,
capitalized at $22.5 million contributed by the French
banks, will make per capita payments of up to $3,000 to all
persons referred to it by the Drai Commission. The Fund
is also permitted to make supplemental payments to individuals who receive awards from the Drai Commission
that are lower than the Fund’s per capita payment floor.
Interest on the Fund will be used for administrative expenses, and for the costs of an organization selected by
plaintiffs’ counsel to help facilitate claims, and will accrue
to the benefit of the Fund. Any unused portion of the
Fund at the end of the claims period will be contributed to
the Foundation.
25. The Foundation serves as the primary mechanism to achieve full disgorgement by French banks and
other French institutions of any remaining assets that
were not subject to restitution. The endowment of the
Foundation, which is over 2.5 billion Francs, or approximately $375 million at current exchange rates, was set at
the amount recommended by the Mattéoli Mission, and
represents the current value of the amount of assets that
cannot be conclusively shown to have been reactivated by
the rightful owners. Approximately $100 million of that
was contributed by French banks.
26. The Foundation will have among its objectives
the development of research and dissemination of
knowledge about the Holocaust and the victims of the Holocaust, as well as other genocides and crimes against

34a
humanity, and support for initiatives to give moral, technical, and financial support to those who have suffered
from persecution and their families. A significant amount
of the Foundation’s funds will be used for grants to organizations outside France, including in the United States.
27. The Foundation will be run by a 25 member
Board of Directors, chaired by a Holocaust survivor,
Simone Weil. Eight directors will represent the French
government, ten will represent Jewish groups in France,
including the CRIF, and seven will be eminent persons
chosen by the other directors and can include non-French
nationals.
28. A key point regarding these institutions is that all
victims who suffered injury at the hands of French banks
are eligible to apply for restitution. Indeed, during the negotiations, attorneys representing the victims vigorously
represented not only the named plaintiffs in their cases,
but also the interests of heirs and others who are similarly
situated.
The United States’ Interests

29. The creation and successful operation of the
Fund, the Drai Commission, and the Foundation is in the
enduring and high interests of the United States. The
United States Government believes, for the reasons set
forth below, that all claims against French banks arising
from their activities in France during World War II, including but not limited to claims relating to aryanization
and damage to or loss of property, including banking assets, should be pursued through the Drai Commission and
the Foundation instead of the courts.
30. First, it is an important policy objective of the
United States to bring some measure of justice to Holocaust survivors and other victims of the Nazi era, who are
elderly and are dying at an accelerated rate, in their lifetimes. Over one hundred thousand Holocaust survivors,

35a
including many who emigrated from France, live in the
United States. As noted earlier, the United States believes the best way to accomplish this goal is through negotiation and cooperation.
31. The Drai Commission, the Fund, and the Foundation are an excellent example of how such cooperation
can lead to a positive result. These fora will, without question, provide benefits to more victims, and will do so faster
and with less uncertainty than would litigation, with its attendant delays, uncertainty, and legal hurdles. Moreover,
the Drai Commission and the Fund will employ standards
of proof that are far more relaxed than would be the case
with litigation. Litigation, even if successful, could only
benefit those able to make out a claim against a bank over
which they could obtain jurisdiction in the United States.
By contrast, the Drai Commission, the Fund, and the
Foundation will benefit all those with claims against
banks that were active in France during World War II,
regardless of whether such banks are still in existence today. The creation of the Fund by the banks, the commitment by the French banks to pay all awards recommended by the Commission, and the participation in the
Foundation not only by the French banks but by the Government of France and other financial institutions, allow
comprehensive relief for a broader class of victims than
would be possible in United States judicial proceedings.
32. All participants in the negotiations accepted the
level of the Foundation’s funding, which was intended to
accomplish full disgorgement of any assets never restituted to their rightful owners, the level of funding of the
Fund, and the procedures adopted by the Drai Commission for prompt resolution of all claims brought before it.
In addition, the Foundation will be dedicated in part to
efforts to ensure that crimes like those perpetrated during the Holocaust never happen again.

36a
33. The United States, together with the participating lawyers for the victims and all other parties to the negotiations, therefore believes that the resolution of these
cases through the Drai Commission, the Fund, and the
Foundation is fair under all the circumstances. This resolution, like the previous resolutions in Germany and Austria, the United States hopes, will serve as an example to
other nations and in other cases where resolution of
claims by victims of the Nazi era for restitution and compensation has not yet been achieved.
34. Second, establishment of the Fund, and recognition of the Drai Commission and the Foundation, helps
further the close cooperation between the United States
and its important European ally and economic partner,
France. One of the reasons the United States took an active role in facilitating a resolution of the issues raised in
this litigation is that we were asked by the French Government to work as partners with them in helping to make
their efforts a success. In recent years, French-American
cooperation on these and other issues has been very close,
culminating in the joint effort to resolve these complex issues. This has helped solidify the ties between our two
countries, ties which are central to U.S. interests in Europe and the world.
35. France is the oldest ally of the United States, and
a major political partner on the international scene. As a
member of the United Nations Security Council, NATO,
the European Union, the Organization on Security and
Cooperation in Europe, and the Council of Europe,
France plays a critical role on issues that directly affect
U.S. national interests. France has collaborated closely
with the United States in critical areas such as the Middle
East peace process, the Balkans, and reform of the United
Nations. France is a major component of the European
Union, with which the U.S. has trading relations amounting to more than a trillion dollars a year. We work closely

37a
with our French allies over a broad agenda -- political,
economic and social -- and need their cooperation in
achieving many of our goals, including with respect to
Holocaust assets. Given the many challenges the U.S. will
face in the future and the importance of the relationship
with France, it is essential that we work to diminish any
potential irritants between the two countries.
36. Third, the participating plaintiffs’ counsel, the defendants, victims’ representatives, and the French government are united in seeking dismissal of this litigation
in favor of the remedy provided by the Fund, the Drai
Commission, and the Foundation, and the United States
strongly supports this position. The alternative would be
years of litigation whose outcome would be uncertain at
best, and which would last beyond the expected life span
of the large majority of survivors. Ongoing litigation could
lead to conflict among survivors’ organizations and between survivors and French banks, conflicts into which
the United States and French governments would inevitably be drawn. There would likely be threats of political
action, boycotts, and legal steps against corporations from
France, setting back European-American economic cooperation.
37. Dismissal of all pending litigation in the United
States in which Holocaust-related claims are asserted
against French banks was accepted by all as a precondition to allowing the Fund to make payments to victims.
The United States strongly supports the creation of the
Fund, and wants its benefits to reach victims as soon as
possible. Therefore, in the context of the Fund, it is in the
enduring and high interest of the United States to vindicate that forum by supporting efforts to achieve dismissal
of (i.e., “legal peace” for) all Holocaust-related claims
against French banks.
38. Fourth, and finally, the Fund, the Drai Commission, and the Foundation are a fulfillment of a half-century

38a
effort to complete the task of bringing justice to victims of
the Nazi era. Since the liberation of France in 1944,
France has made compensation and reconciliation for
wrongs committed during the occupation and Vichy regime an important part of its political agenda. Although
no amount of money will ever be enough to make up for
all Nazi-era crimes, the French Government has over time
created significant compensation and restitution programs for Nazi-era acts. The Fund and the Foundation
add another $400 million to that total, over and above
whatever claims are ultimately paid through the Drai
Commission, and complement these prior programs.
I declare under penalty of perjury that the foregoing
is true and correct.
Dated: 1/19/01

[original signature]
Stuart E. Eizenstat
Deputy Secretary of the
Treasury and Special Representative of the President and
Secretary of State on Holocaust
Issues

